No. 20-1472
IN THE

*upreme Court of tije liutteb *tato
BOECHLER, P.C.,
Petitioner,
V.

COMMISSIONER OF INTERNAL REVENUE,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eighth Circuit
BRIEF OF THE FEDERAL TAX CLINIC AT
CHARLES WIDGER SCHOOL OF LAW AND
THE SETON HALL CENTER FOR SOCIAL
JUSTICE IMPACT LITIGATION CLINIC AS
AMICI CURIAE IN SUPPORT OF PETITIONER
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(b) and the April 15, 2020 Order of
this Court, I hereby certify that one copy of the Brief of the Federal Tax Clinic at
Charles Widger School of Law and The Seton Hall Center for Social Justice Impact
Litigation Clinic as Amici Curiae in Support of Petitioner in Boechler, P.C. v.
Commissioner of Internal Revenue, No. 20-1472, was sent via Two Day Service to the
U.S. Supreme Court, and one copy was served via Priority Mail and electronic service
on all parties required:
Melissa Arbus Sherry
Counsel of Record for Petitioner
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-3386
melissa.sherry@lw.com

Elizabeth B. Prelogar
Counsel of Record for Respondent
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
I declare under penalty of perjury that the foregoing is true and correct.

Shay Dvoretzky
Dated: May 21, 2021

